Supreme Court, U.S.
FILED

WAIVER

SEP 0 I 2020
OFFICE OF THE CLERK

Supreme Court of the United States
No. 20-5374
Amro Elansari
(Petitioner)

v.

United States, et al

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ
one is requested by the Court.

of certiorari unless

Please check the appropriate boxes:
0

Please enter my appearance as Counsel of Record for all respondents.
my
There are multiple respondents, and I do not represent all respondents. Please enter
appearance as Counsel of Record for the following respondent(s):
Penn State Dickinson School of Law

0 I am a member of the Bar of the Supreme Court of the United States.
d,

I am not presently a member of the Bar of this Court. Should a response be requeste
the response wi be iled by Bar me ber.
Signature
Date: September 1, 2020

(Type or print) Name Chena L Glenn-Hart, Esquire
ll Ms.
0 Mr.

0 Mrs.

0 Miss

Firm McQuaide Blasko, Inc.
Address 811 University Drive
City & State State College, PA
Phone

Zip 16801

(814) 238-4926

NER IF
SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIO
A COPY
OF
NT(S)
RECIPIE
THE
OF
)
PRO SE. PLEASE INDICATE BELOW THE NAME(S
ED.
REQUIR
IS
E
SERVIC
OF
ICATE
OF THIS FORM. NO ADDITIONAL CERTIF
Cc:

Amro A. Elansari

at
Obtain status of case on the docket. By phone at 202-479-3034 or via the internet
.
available
number
http://www.supremecourtus.gov. Have the Supreme Court docket

Illll

McQuaide Blasko, Inc.
811 University Drive, State College, PA 16801-6624
814.238.4926 FAX 814.234.5620
Additional offices in Hershey, Hollidaysburg, and Williamsport

McQuaide
BlaskTIORNEYS AT LAW

www.mqblaw.com

September 1, 2020
Via First Class Mail
Scott Harris, Clerk
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
In Re: Elansari v. United States, et al
Supreme Court Case No.: 20-5374
Dear Mr. Harris:
Enclosed for filing in the above matter please find Respondent Penn State Dickinson
School of Law's Waiver. Thank you for your attention to this matter.
Please feel free to contact me with any questions.

Very truly yours,
McQU'A 131.,/,K0
By:
henar. len
CGH:cjs
Enclosure
cc/ENC:

Amro Elansari
•

RECEWED
SEP 1 1 2020
OFFICE,ORTHE CLERK
SUPREME COMT U.S.

